OIG: Full Report: Observations and Matters for Consideration Regarding the CFPB's Annual Budget Process - CFPB Report 2013-AE-C-018
If you are seeing this message, Javascript is disabled. Disclaimer for all external links found on this page: The Office of Inspector General (OIG) for the Board of Governors of the Federal Reserve System and the Consumer Financial Protection Bureau does not necessarily endorse the views expressed or the facts presented on the external sites. The OIG does not endorse any commercial products that may be advertised or on the external sites. The OIG's privacy policy does not apply on the external sites. Please check the site for its privacy notice.
Skip to Navigation
Skip to Main content
Hotline
FAQsCareersContact Us
OIG Home
OIG Home
Search full text of reports and pages:
Search
About Us
Introduction to the OIG
The Inspector General
Senior Leadership
Strategic Plan
Inspector General Act
Board Activity
CFPB Activity
FAQs
Reports
Audit Reports
Work Plan
Semiannual Reports to Congress
Peer Reviews
Audits
What We Do
Oversight Areas
Audit Highlights
Investigations
What We Do
Fraud Prevention
Case Highlights
Information Technology
What We Do
FISMA
Data Analytics
Newsroom
Media Contact
News Releases
Media Kit
FAQsCareersContact Us
HOTLINE
Report Fraud, Waste, or Abuse
IN THIS SECTION
Audit Reports
Work Plan
Semiannual Reports to Congress
Peer Reviews
Skip SHARE THIS PAGE section
SHARE THIS PAGE
E-mail a link to this page
Tweet a link to this page
Skip STAY CONNECTED section
STAY CONNECTED
Follow our RSS feed
Subscribe to e-mail updates
CFPB Report:
2013-AE-C-018
October 22, 2013
Observations and Matters for Consideration Regarding the CFPB's Annual Budget Process
EXECUTIVE SUMMARY
FULL REPORT: Table of Contents
Next >
available formats
Executive Summary:
HTML
Full Report:
PDF (2 MB) |
HTML
Table of Contents
Report Contributors and AbbreviationsMemorandumAttachment 1
LINKS TO THE BOARD AND THE CFPB
Board of Governors
Consumer Financial Protection Bureau
RELATED SITES AND RESOURCES
Council of the Inspectors General on Integrity and EfficiencyCouncil of Inspectors General on Financial OversightU.S. Government Accountability Office
AccessibilityDisclaimerPrivacy
FOIA
No Fear Act Data